                                    CLOSEOUT FOR MOO080030

       This case came to OIG on August 7,2000, when an official' of a university*
 informed us that an inquiry had concluded that an allegation of plagiarism had
 substance and required investigation. The inquiry had found that two publications, one
 authored by the complainant3 and one authored by the two subjects/ contained          r

 substantially similar text and data. The authors of both publications maintained that
 the work was original to them. The complainant and the subjects had formerly been
 members of the same department at the ~niversity.~    The subjects' publication
 acknowledged support from NSF.6

        OIG deferred independent investigative activity until the university completed
 its own investigation. The university's investigation committee concluded that the data
 collection, analysis, and prose in dispute were the work of the subjects and had been
 misappropriated by the complainant. The University's Provost7 adjudicated the case for
 the university and concurred with the committee's conclusion.

       OIG reviewed the university investigation committee's report and determined
that the university's conclusion that the subjects had not committed misconduct was
well supported by the evidence. In OIG's view, among the most important evidence
supporting this conclusion were (1) records of data collection by the first subject, and
the absence of credible records of data collection or even specific plans by the




                                        -
complainant to collect the disputed data; (2) documentation that the second subject had
made analytic changes in response to reviewer comments on an earlier version of the



"e
                  -   -


     complainant is Dr.f-


                                        --
                                     the Departmenttof
                                             -
                                                    a-*                           the University. Her




                                         -
publication is entitled -'                       7



                              and appeared
4D edited byn-d                                              '-           1998), p p . W
4The first subject is Dr. k            of the Department of-at                                    The
second subject is Dr.-of          the F        ?        .                                   ' '
                                                          The subjects'publication is entitled


 5The Department of
 6 The subjects state that "[flundingfor data collection was obtained from the
-/National               Science Foundation Fund for the Advancement of the Discipline."
 7 ~r.-                     Executive Vice President and Provost o                     m



                                         Page 1 of 2                                 MOO-30
subjects' manuscript, indicating that he could not have supplied the complainant with
the analysis while they were collaborators, as she claimed; and (3) clear evidence that
the complainant submitted falsified documents to the investigation committee, which
drew further into question the authenticity of other doubtful material she submitted to
the committee.

       OIG concluded that the subjects had not committed misconduct in science.
Because none of the complainant's actions in this case occurred in the course of
"proposing,carrying out, or reporting results from activities funded by NSF" (45 C.F.R.
5 689.1(a)(l)), OIG lacked jurisdiction over them and di'd not consider whether they
might constitute misconduct in science.

      This investigation is closed and no further action will be taken on this case.




                                  Page 2 of 2
